No. 20-1767

In the
Supreme Court of the United States
SARASOTA WINE MARKET, LLC, et al.,
Petitioners,
v.
ERIC S. SCHMITT, Attorney General of Missouri, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

BRIEF IN OPPOSITION
CERTIFICATE OF SERVICE
In accordance with Rule 29.5(b), I certify that all parties required to be served,
have been served, and that the required copies of the Brief in Opposition to the
Petition for Writ of Certiorari in the above captioned case have been sent to the U.S.
Supreme Court by commercial overnight delivery, and electronic copies were served
by electronic mail on the following party listed below on September 10, 2021.
James A. Tanford
Epstein Cohen Seif & Porter
50 S. Meridian St. Suite 505
Indianapolis, IN 46204
(812) 332-4966
tanford@indiana.edu
Counsel of Record for Petitioners

September 10, 2021

Respectfully submitted,
______________________
D. John Sauer
Solicitor General
Counsel of Record
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
207 West High Street
P.O. Box 899
Jefferson City, MO 65102
John.Sauer@ago.mo.gov
(573) 751-8870
Counsel for Respondents

